. t

b»

No.

In The

Supreme Court of The United States

Glen Plourde,
Petitioner
v.
STATE OF MAINE; WILLIAM ANDERSON, Penobscot County Superior Court
Justice; CHARLES F. BUDD JR., Newport District Court Judge; PENOBSCOT
COUNTY DISTRICT ATTORNEYS OFFICE, MARIANNE LYNCH, Penobscot
County District Attorney; STEPHEN BURLOCK, Penobscot County Assistant
District Attorney; PHILIP MOHLAR, Attorney at Law; DICK HARTLEY, Attorney
at Law
Respondents

PROOF OF SERVICE
., do swear or declare that on this
I,
date, Q(ofT.’tlf
20 'Z- I ., as required by Supreme Court Rule 291 have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be served,
by depositing an envelope containing the above-documents in the United States
mail properly addressed to each of them and with first-class postage prepaid, or by
delivering to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
ATTN: Aaron Frey, Maine State Attorney General
The State of Maine
6 State House Station
Augusta, Maine 04333
207.626.8800
William Anderson, Penobscot County Superior Court Justice
78 Exchange Street
Bangor, Maine 04401

r

207.561.2300
Charles Budd, Newport District Court Judge
12 Water Street
Newport, Maine 04953
207.368.5778
ATTN: Marianne Lynch, Penobscot County District Attorney
The Penobscot County District Attorney’s Office
97 Hammond Street
Bangor, Maine 04401
207.942.8552
Marianne Lynch, Penobscot County District Attorney
97 Hammond Street
Bangor, Penobscot County
Maine 04401
207.942.8552
Stephen Burlock, Penobscot County Assistant District Attorney
97 Hammond Street
Bangor, Maine 04401
207.942.8552
Philip Mohlar Esq., Attorney at Law
67 Court Street, PO Box 189
Skowhegan, Maine 04976
207.474.6200 (phone)
philmohlar@beeline-online .net
Dick Hartley Esq., Attorney at Law
15 Columbia Street
Bangor, Penobscot County
Maine 04401
207.941.0999
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

, 20

u
^mgnature)

